Genesis Credit® Account
First Electronic Bank
This document applies to consumers who apply for a Genesis Credit Account. When you apply, you will be instructed by a
representative of the retailer to take a copy of this document. If you have any questions about this document or the Genesis Credit
Account, please call Genesis FS Card Services at 1-866-502-6439.
This document also contains important disclosures, including an Arbitration of Disputes Provision that will substantially affect your
rights unless you reject it. However, the Arbitration of Disputes Provision does not apply if you are a Covered Borrower entitled to
protection under the Federal Military Lending Act. Please see the section of this document labeled “Military Lending Act.” This
document is part of, but is not the complete Genesis Credit Account Agreement. Upon approval, the complete Agreement will be
sent to you.
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

29.99%

Paying Interest

We will begin charging interest on purchases on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Penalty Fees
 Late Payment
 Returned Payment

Up to $38
Up to $38

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See the
Account Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided below and
in the Account Agreement.
TERMS AND CONDITIONS
Genesis Credit Accounts (“Accounts”) are issued by First Electronic Bank (“we”, “us” and “our”) and may be used for purchases at
participating retailers that accept this Account. This offer is only valid for new accounts, and you must be at least 18 year s old (19 in AL),
have a social security number, physical address, and valid, acceptable photo identification.
You authorize us to gather information about you, including from your employer, your bank, credit reporting agencies (including obtaining
a copy of your credit reports), and others, to verify your identity and evaluate your credit, and to review, maintain and perform collection
activities on your Account. If you ask us, we will tell you whether or not we requested your credit report, and the names and addresses
of any credit reporting agencies that provided us with such reports.
To be approved for an Account, you must meet our credit qualification criteria. Your credit limit will be determined by your income and
review of your debt, including debt on your credit report. You will be informed of your credit limit if you are approved.
You authorize us, even if you are declined, to share your information, except your social security number, with the participating retailers
that accept your Account and any of their affiliates. You also authorize us to share experience and transaction information with them
about your Account. To stop us from sharing information about you or your Account with the participating retailers for marketing
purposes, please call Genesis FS Card Services at 1-800-303-8341.
If you are approved for an Account, we may report information about your Account to credit bureaus. Any late payments, missed
payments, and other defaults on your Account may be reflected in your credit report.

XXXX-1

Electronic Signatures: You acknowledge that by clicking “Submit” or similar button on the credit application, you are indicating your
intent to receive electronic communications about your credit application for a Genesis Credit Account and that this shall constitute your
signature.

IMPORTANT DISCLOSURES
Keep this document for your records. If you are approved for a Genesis Credit Account, we will mail you a complete Genesis Credit
Account Agreement. Definitions used in this document:
 “you” and “your” means the applicant or Accountholder;
 “we”, “us” and “our” means First Electronic Bank;
 “Account” means your Genesis Credit Account.
Using Your Account. You may use your Account for purchases from participating retailers that accept this Account.
Deferred Interest. Each purchase transaction on your Account will be subject to up to 6 months of deferred interest (“deferred interest
period”). Interest will be charged to your Account from the purchase date if the purchase balance is not paid in full within the deferred
interest period or if you make a late payment.

Each purchase transaction accrues interest from the date of purchase, but we will not charge that interest to your Account if you pay
that purchase balance in full before the end of the deferred interest period and you make monthly minimum payments as required.
The deferred interest period will end when one or more of the following events occur:
1. 6 months from the purchase date, as applicable;
2. your Account becomes more than 180 days past due;
3. your Account is charged off for any reason.
Interest on each purchase transaction will accrue during the deferred interest period at an APR of 29.99%. That rate will also apply
after the deferred interest period.
You must make monthly minimum payments during the deferred interest period. The monthly statement we send you will include
these monthly minimum payment amounts and will help you keep track of your purchase balance(s) and their deferred interest
period(s). Paying only the monthly minimum payment may not pay off the purchase balance within the deferred interest period. You
may have to make additional or increased payments during the deferred interest period to avoid having to pay all accrued defe rred
interest.
How Interest Charges Are Determined
Your Interest Rate. We use a daily periodic rate to calculate the interest on your Account. The daily periodic rate is the applicable
APR multiplied by 1/365. The daily periodic rate for your Account is 0.0821% and the applicable APR is 29.99%.
When We Charge Interest. We charge interest on your purchases from the date you make the purchase until you pay the purchase in
full.
How We Calculate Interest. We calculate interest separately for each balance segment on your Account. We do this by applying the
daily periodic rate to your average daily balance (including new purchases), and then multiplying the resulting number by the number
of days in the Billing Cycle for each balance segment. An average daily balance is calculated for the following balance segments as
applicable: Purchase Balance segments, Balances subject to deferred interest promotions, and the Regular Balance segment.
We calculate interest for each balance segment as follows:
1. For each day, we take the beginning balance of each balance segment in the billing cycle, including any unpaid interest
charges, add any new purchases and debits, and then subtract the applicable portion of any payments and credits. This gives
us the daily balance. Late Payment Fees, Returned Payment Fees, and Documentation Fees are not included in the daily
balance.
2. Then, we add all the daily balances for the billing cycle together and divide the total by the number of days in the billing cycle.
This gives us the average daily balance.
3. Next, we multiply the daily periodic rate by the average daily balance.
4. Finally, we take the resulting number from #3 and multiply it by the number of days in the billing cycle. This gives us the
interest charge for each balance segment for the billing cycle.
Monthly Minimum Payment. Your monthly minimum payment due will be the greater of:
1. $15; or
2. The sum of:
a. Each fixed monthly payment amount applicable to each of your Purchases (described below), plus
XXXX-1

b.

5% of your Regular Balance.

Each Purchase will have a fixed monthly payment amount which we calculate when the Purchase is posted to your Account. We
determine the fixed monthly payment amount for a Purchase by multiplying the Purchase amount by 5%, and then rounding the result
to the nearest dollar. If the remaining balance of a Purchase plus accrued interest on that Purchase is less than the fixed monthly
payment amount, we will reduce the fixed monthly payment amount for that Purchase accordingly. We will continue to include th e
fixed monthly payment amount for a Purchase in the monthly minimum payment due until the Purchase plus accrued interest on that
Purchase is paid in full.
If you make a payment in excess of the monthly minimum payment due for any month, it will not reduce the fixed monthly paymen t
amount applicable to any Purchase that is used to calculate your monthly minimum payment due in subsequent months, but it may
result in your paying off a Purchase more quickly.
Your monthly minimum payment due also will include the greater of (i) any past due amount, or (ii) any amount by which the New
Balance exceeded your Credit Limit. Your monthly minimum payment due will never exceed your New Balance.
Application of Payments. For each billing cycle, payments up to the amount of your monthly minimum payment due will be applied
to charges and principal due (including new transactions) in any way we determine. We will generally apply payments up to the amount
of your monthly minimum payment due in a manner most favorable or convenient for us.
For each billing cycle, to the extent your payments exceed your monthly minimum payment due, we will apply these excess amounts
in the order required by applicable law. If applicable, during the last two billing cycles of a deferred interest promotion period, we will
apply the excess amounts of your payments to the deferred interest promotion balance.
Other Fees
Late Payment Fee. If we do not receive your monthly Minimum Payment Due by the Closing Date of the Billing Cycle in which the
Payment Due Date occurs and the amount past due is more than $9.99, we will apply a Late Payment Fee to your Account. The Late
Payment Fee is $27 if you were not charged a Late Payment Fee during any of the prior six billing periods. Otherwise, the Late Payment
Fee is $38. The Late Payment Fee will never exceed the amount of your most recently required monthly minimum payment.
Returned Payment Fee. If any payment on your Account is returned to us unpaid for any reason, we will apply a Returned Payment
Fee to your Account. The Returned Payment Fee is $27 if you were not charged a Returned Payment Fee during any of the prior six
Billing Cycles. Otherwise, the Returned Payment Fee is $38. The Returned Payment Fee will never exceed the monthly minimum
payment.
Documentation Fee. You may request a copy of a statement previously sent to you for a Documentation Fee of $3 per statement,
which fee we will charge to your Account. Copies of sales tickets or other items posted to your Account may be obtained for a
Documentation Fee of $10 per sales ticket or other item, which will be applied to your Account. Notwithstanding the foregoing, we
will not impose any fee in connection with a good faith assertion of a billing error or other exercise of your Billing Rights (see below
under “Your Billing Rights – Keep This Notice For Future Use”).
MILITARY LENDING ACT
The Military Lending Act provides protections for certain members of the Armed Forces and their dependents (“Covered Borrowers”).
The provisions of this section apply to Covered Borrowers. If you would like more information about whether you are a Covered
Borrower, you may contact us at 1-866-502-6439.
Statement of MAPR. Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an Annual Percentage Rate of 36%. This rate must include, as applicable to the credit transaction or account: (1) the
costs associated with credit insurance premiums; (2) fees for ancillary products sold in connection with the credit transaction; (3) any
application fee charged (other than certain application fees for specified credit transactions or accounts); and (4) any participation fee
charged (other than certain participation fees for a credit card account).
Oral Disclosures. In order to hear important disclosures and payment information about your Account, you may call 1-866-875-5929.
Applicability of Arbitration of Disputes Provision. The Arbitration of Disputes Provision set forth in this document and in the Account
Agreement does not apply to Covered Borrowers.
OTHER PROVISIONS
Arbitration of Disputes Provision. The Account Agreement, which we will send to you, provides that you and we will resolve claims
on your Account by binding arbitration as opposed to in court with a judge or jury. You may opt out of this arbitration provision
within 60 days after the opening date of your Account. Your Account Agreement will explain how you may do so. However, the
arbitration provision does not apply if you’re a Covered Borrower entitled to protection under the Federal Military Lending Act.

XXXX-1

Please see the section of this document labeled “Military Lending Act”. Your Account Agreement terms will also provide that you
waive the right to pursue class actions against us.
Credit Bureau Disputes. If you believe we inaccurately reported credit history information about you or your Account to a credit
reporting agency, write to us at Genesis FS Card Services, P.O. Box 4499, Beaverton, Oregon 97076.
All Borrowers. You give us (as well as our agents, successors, and assigns) permission to access your credit report in connection with
any transaction, or extension of credit and on an ongoing basis, for the purpose of reviewing your Account, taking collection action on
your Account, or for any other legitimate purposes associated with your Account. Upon your request, we will inform you of whether
or not a consumer credit report was ordered, and if it was, you will be given the name and address of the consumer reporting agency
that furnished the report.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement. If you think there is an error on your statement, please write to us at P.O. Box
4499, Beaverton, OR 97076.
In your letter, give us the following information:
 Account information: Your name and Account Number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least three (3) business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors, and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit line.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
 If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will then send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question, even if your bill is correct.

XXXX-1

Your Rights If You Are Dissatisfied With Your Account Purchase. If you are dissatisfied with the goods or services that you have
purchased with your Account, and you have tried in good faith to correct the problem with the Retailer, you may have the right not
to pay the remaining amount due on the Purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100 miles of your current mailing address, and the Purchase
price must have been more than $50. (Note: Neither of these are necessary if your Purchase was based on an advertisement
we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your Account for the Purchase. Purchases made with cash advances from an ATM or with a check that
accesses your Account do not qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at P.O. Box 4499, Beaverton,
OR 97076.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

STATE DISCLOSURES
California Residents: A married applicant may apply for a separate credit Account. As required by law, you are hereby notified that a
negative credit report reflecting on your credit record may be submitted to a consumer reporting agency if you fail to fulfill the terms
of your credit obligations. After credit approval, each applicant shall have the right to use the credit Account up to the limit of the
credit Account. Each applicant may be liable for amounts extended under the plan to any joint applicant.
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy
customers, and that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement or court decree adversely affects
our rights, unless you give us a copy of such agreement, statement or court order before we grant you credit, or we have actual
knowledge of the adverse obligation. All obligations on this Account will be incurred in the interest of your marriage or family. You
understand that we may be required to give notice of this Account to your spouse. Married Wisconsin residents must furnish the
name and address of their spouse to Genesis FS Card Services, P.O. Box 4477, Beaverton, OR 97076.
Delaware Residents: Service charges not in excess of those permitted by law will be charged on the outstanding balances from month
to month.
Kentucky Residents: You may pay the unpaid balance of your credit Account in whole or in part at any time.
New York and Vermont Residents: We may obtain a consumer report for any legitimate purpose in connection with your Account or
your application, including but not limited to reviewing, modifying, renewing and collecting on your Account. Upon your request, we
will inform you of the names and addresses of any Consumer Reporting Agencies that have furnished the reports. New York residents
may contact the New York State Department of Financial Services at 1-800-518-8866 or www.dfs.ny.gov to obtain a comparative list
of credit card rates, fees and grace periods.
Utah Residents: As required by law, you are hereby notified that a negative credit report reflecting on your credit record may be
submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations.

XXXX-1

